OIG Investigative Reports, Former Director of Admissions of Touro College, Former Director of the Computer Center of Touro College, Three Students of Touro College, as Well as Three New York Public School Teachers Indicted
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
DISTRICT ATTORNEY - NEW YORK COUNTY
News Release
July 16, 2007
Contact:  Jennifer Kushner
212-335-9400
Former Director of Admissions of Touro College, former Director of the Computer Center of Touro College, three students of Touro College, as well as three New York Public School teachers indicted.
Manhattan District Attorney Robert M. Morgenthau announced  today the indictment of ten individuals for their  involvement in a scheme to create and sell fraudulent student transcripts  at a local college based in Manhattan.  Some of the defendants charged in the indictment include the former Director of  Admissions and the former Director of the Computer  Center for Touro  College, three students who attended Touro College, as well as three New York City Public School teachers.
In February 2007, Touro College reported the case to the Computer Crimes Squad, New York Police Department, which referred the case to the Manhattan District Attorney’s Office.
The defendants are ANDRIQUE BARON, MICHAEL CHERNER, VLADIMIR “JIMMY” DIAQUOI, LASHEEN TINGLING, FLORENCE  CONSTANT, UZI AZIZOV, BORIS YAKUBOV, RENEE RENE, GHISLENE JULMICE, and IRENE  ZALIVANSKY.
BARON  was the former Director of Admissions for Touro College, New York School of Career and Applied Studies in  Manhattan (1994–2007) and CHERNER was the former  Director of the Computer Center for Touro  College, Kings Highway, Brooklyn campus (1990-2007). The indictment charges that from approximately January 8, 2007 to March 31, 2007, BARON and CHERNER improperly altered, created, and deleted at least seven transcripts in a cash-for-grades scheme. At least three of the altered records belonged to current Touro students, whose  existing records were enhanced with improved grades or additional or deleted courses.
BARON made the  changes to the transcripts by accessing the Touro computer server using his  work computer (located in his office at 27 West 23rd Street) as well as his home computer in Long Island. CHERNER  made the changes by accessing the Touro computer server using his work computer (Kings Highway, Brooklyn).
BARON and CHERNER also accepted bribes from at least four individuals who never attended Touro, but paid for fraudulent transcripts. Three of these individuals were New York City Department of Education (“NYCDOE”) teachers who needed master’s degrees to obtain permanent certification. These teachers purchased counterfeit transcripts, which they submitted to the NYCDOE. BARON and CHERNER created forged transcripts by using as a template a legitimate Touro student’s transcript found on the Touro computer server. The forged  “certified” transcript would be identical to the original legitimate student transcript, except the student’s name would be changed.
DIAQUOI acted as the middleman between BARON and the teachers. DIAQUOI collected the cash payments from the teachers and passed them on to BARON. DIAQUOI also delivered  the forged transcripts to the teachers after BARON created the documents.
The following are examples of the defendants’ criminal  activity.
AZIZOV was an undergraduate student at Touro College whose grade point average increased from 1.23 to 3.63 through the assistance of CHERNER and BARON. On January 25, 2007, AZIZOV’s official Touro registration records for the fall semester 2006 revealed that he was registered for five courses and that he earned failing grades and withdrawals for four of these courses. BARON and CHERNER accessed AZIZOV’S records in February 2006 and changed his course records for that semester to improperly reflect that AZIZOV took six classes and earned all As and Bs. For example, AZIZOV’s grade in “Business Law I” was changed from an “F” to a “B”; “Principals of Marketing” was changed from a “TF” (tentative fail) to an “A-”; “Principals of Macroeconomics” and “Money and Banking,” which were originally marked as “WNA” (withdrawals), disappeared entirely from his record.
TINGLING, since February 2002, worked in the Touro Registrar’s office where she processed official student transcripts. She was a Touro student beginning in 1997, earning an Associate of Arts degree and a Bachelor of Science degree. TINGLING was also legitimately enrolled in a graduate program at Touro in order to receive her Masters of Science degree in Special Education; however, she failed to complete required classes for her degree. BARON improperly accessed TINGLING’s records and changed them to improperly reflect that TINGLING completed her required courses and earned As and Bs.  For example, BARON gave TINGLING an “A-” in “Spanish II,” a class that TINGLING never attended. TINGLING graduated based on the fraudulent transcript with a master’s degree in Special Education.
YAKUBOV was an undergraduate student at Touro College who obtained a fraudulent transcript from the Touro Graduate School of Education and Psychology. The phony transcript showed he had earned a master’s degree. BARON updated YAKUBOV’s records in February 2007. Yakubov never attended graduate school classes.
CONSTANT was a public school teacher at the Queens School for Career Development, where she taught Special Education since 2004. In order to obtain permanent certification from the NYCDOE, CONSTANT was required to earn a master’s degree. Beginning in 2003, she purchased a transcript that falsely indicated that she had earned a Master of Science in Special Education degree from Touro College. She paid DIAQUOI at least $3,000 for the fraudulent transcript. CONSTANT submitted the fraudulent certified transcript to the NYC Department of Education. She never attended Touro nor did she earn a master’s degree.
RENE was a public school teacher at PS 233 in Queens, where she has held various positions since 1994. RENE paid DIAQUOI at least $3,000 for a transcript falsely indicating that she earned a Master of Science in Special Education from Touro. She never attended Touro College for graduate or undergraduate school. She submitted the forged transcript to the NYCDOE.
JULMICE had been a New York public school teacher since 2000. Her last teaching job, starting in 2005, was as a teacher at PS 243 Weeksville School in Brooklyn. She also paid at least $3,000 to DIAQUOI to obtain a forged transcript indicating that she had earned a Master of Science in Special Education from Touro College, which she in turn submitted to the NYCDOE.
ZALIVANSKY, who never attended Touro, obtained an entire transcript, which falsely indicated       that she took classes and earned a degree from Touro College.
A search warrant  executed at BARON’s home resulted in the recovery of numerous fake student  transcripts and records, including those in the names of CONSTANT and JULMICE. BARON was arrested on March 20, 2007 at his Touro College office, located at 27 West 23rd Street. CHERNER was arrested on July 2, 2007 at his home in Brooklyn. Both defendants have been temporarily suspended from their positions at Touro. TINGLING was arrested at her home on July 2, 2007. CONSTANT, RENE, and JULMICE were arrested on July 10, 2007. DAIQUOI, AZIZOV, YAKUBOV, and ZALIVANSKY are still being sought.
BARON is charged with  Computer Trespass, three counts of Commercial Bribe Receiving in the First  Degree, seven counts of Computer Tampering in the Third Degree, and ten counts  of Falsifying Business Records in the First Degree.
CHERNER is charged with  Computer Trespass, two counts of Commercial Bribe Receiving in the First Degree and one count of Commercial Bribe Receiving in the Second Degree, one count of  Computer Tampering in the Third Degree, and three counts of Falsifying Business  Records in the First Degree.
DIAQUOI was charged with  two counts of Commercial Bribe Receiving in the First Degree and three counts  of Falsifying Business Records in the First Degree.
TINGLING was charged with  one count of Falsifying Business Records in the First Degree and with one count  of Falsifying Business Records in the Second Degree.
CONSTANT was charged with  one count of Falsifying Business Records in the First Degree and with one count  of Offering a False Instrument for Filing in the First Degree.
AZIZOV, YAKUBOV, JULMICE,  RENE, and ZALIVANSKY were each charged with one count of Falsifying Business  Records in the First Degree.
Computer Trespass, Commercial Bribe Receiving in the First Degree, Computer Tampering in the Third  Degree, and Falsifying Business Records in the First Degree are all E felonies, which are punishable by up to four years in prison.
CHERNER and TINGLING were arraigned today in New York State Supreme Court, part 70. CONSTANT  will be arraigned in New York State Supreme Court, Part 70 on July 23, 2007.
Assistant District Attorney Jonathan Lenzner is in charge of the prosecution  under the supervision of Identity Theft Unit Chiefs Aaron Karczmer and Antonia  Merzon and Trial Bureau 50 Bureau Chief Warren Murray.
Mr.  Morgenthau would like to thank the Computer Crimes Squad of the NYPD, specifically Detective Richard MacNamara, Detective Jeannie Finucane, and  Detective Robert DiBattista, Lt. John Otero, as well as John P. Higgins, Jr., Inspector General and Special Agent Jeremy Hunt, United States Department of  Education, Office of Inspector General who assisted in this investigation. Mr.  Morgenthau would also like to thank the New York City Department of Education and officials from Touro College who provided their cooperation and assistance.
Defendants’ Information
ANDRIQUE BARON, 12/15/72
2068 Hoffman Avenue
Elmont, New York
MICHAEL CHERNER, 11/30/56
56 Village Roade East
Brooklyn,  New York
VLADIMIR  “JIMMY” DIAQUOI, 10/23/69
421 East 21st Street
Brooklyn, NY
LASHEEN TINGLING, 8/31/75
175 Willoughby  Street
Brooklyn, New York
RENEE RENE, 3/14/69
94-26 210 Street
Queens   Village, New York
FLORENCE  CONSTANT, 12/22/50
137-20 45th Street
Flushing, New York
GHISLENE JOSEPH JULMICE,  12/9/1964
147-61 Arlington Terrace
Queens, NY
UZI AZIZOV, 7/19/85
1790 West 6th Street
Brooklyn, New York
BORIS  YAKUBOV, 5/29/1982
105-16 63rd St
Forest Hills, NY
IRENE ZALIVANSKY,  11/20/1983
2800 Coyle Street
Brooklyn, NY
###
Top
Printable view
Share this page
Last Modified: 07/24/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov